BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF COMPLIANCE
No. __
CONCERNED CITIZENS FOR NUCLEAR SAFETY, INC.,

Petitioner,
V.
UNITED STATES ENVIRONMENTAL PROTECTION
AGENCY; UNITED STATES DEPARTMENT OF ENERGY;
TRIAD NATIONAL SECURITY, LLC,

Respondent.

As required by Supreme Court Rule 33. l(h), I certify
that the Petition for Writ of Certiorari contains 6,023
words, excluding the parts of the Petition that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty ofperjury that the foregoing
is true and correct.
Executed on November 19, 2020.

0

Donna J. Wolf
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED
(800) 890.5001

www.beckergallagher.com

I 8790 Governor's Hill Drive
Suite l 02
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Sworn to and subscribed before me by said Affiant
on the date designated below.

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
F"hrin1ry 14 2fl?.3

